    AMTRAK CASCADES AND COAST
STARLIGHT ROUTES: IMPLEMENTATION OF
NEW METRICS AND STANDARDS IS KEY TO
  IMPROVING ON-TIME PERFORMANCE
         Federal Railroad Administration

         Report Number: CR-2010-117
        Date Issued: September 23, 2010
           U.S. Department of
                                                             Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Causes of Delays for the                           Date:    September 23, 2010
           Coast Starlight and Amtrak Cascades Routes
           Federal Railroad Administration
           Report Number: CR-2010-117

  From:    Mitchell Behm                                                         Reply to
                                                                                 Attn. of:   JA-50
           Assistant Inspector General for Rail, Maritime, &
           Economic Analysis

    To:    Federal Railroad Administrator

           Over the past 2 years, Congress has enacted legislation and committed billions of
           dollars to upgrade and expand the nation’s intercity passenger rail service. Early
           this year, the U.S. Department of Transportation awarded $8 billion in stimulus
           funds from the American Recovery and Reinvestment Act of 2009 (ARRA) 1 to 31
           states to develop high-speed and intercity passenger train service. For this
           initiative to be successful, passenger trains need to reach their destinations on
           time. Poor on-time performance (OTP) discourages ridership, thereby resulting in
           lower revenues and higher operating costs.

           In 2008, we reported that poor OTP on Amtrak's intercity passenger routes
           impacted its bottom line. 2 Subsequent to our findings, Congress passed the
           Passenger Rail Investment and Improvement Act of 2008 (PRIIA) 3, which
           requires us to report on service delays and needed improvements on Amtrak's
           Pacific Coast train routes—Coast Starlight and Amtrak Cascades. 4 Accordingly,
           this report (1) describes the routes’ OTP between 2004 and 2009 5, (2) identifies
           the factors underlying the routes' OTP, and (3) evaluates the impact of Federal
           Railroad Administration's (FRA) new metrics and standards on OTP.



           1
               Public Law 111-5
           2
               OIG Report Number CR-2008-047 “The Effects of Amtrak’s Poor On-Time Performance,” March 28, 2008. OIG
               reports can be found on our website: www.oig.dot.gov.
           3
               Public Law 110-432
           4
               Section 225 of Division B of PRIIA.
           5
               All references to years are in fiscal years unless otherwise noted.
                                                                                                                     2


To conduct our work, we interviewed FRA, Surface Transportation Board (STB),
and Amtrak officials and reviewed relevant laws, policies, and Amtrak
documentation. We also traveled on the Coast Starlight and Amtrak Cascades
routes and met with state, commuter train, and freight officials in Portland, OR,
Washington, DC, and Seattle, WA. To determine the causes of delays, we
analyzed Amtrak delay data and spoke with conductors, host railroad and state
officials to obtain their views about the causes of delays along the routes. We
conducted this performance audit from October 2008 through July 2010 in
accordance with generally accepted government auditing standards. See details on
our scope and methodology in Exhibit A.


RESULTS IN BRIEF
While the Coast Starlight and Amtrak Cascades lines experienced significant
delays from 2004 through 2009, total minutes of delay on both lines dropped after
2006. At their peak in 2006, the Coast Starlight and Amtrak Cascades experienced
more than 67 and 38 hours of delays, respectively, per 10,000 train miles.
However, by 2009, delays on both routes had fallen significantly. With these
drops in delay time came improvements in OTP for both lines. After hitting a low
of 4 percent in 2006, Coast Starlight's OTP improved to 82 percent by 2009.
Amtrak Cascades' OTP also hit its low, below 50 percent, in 2006, but by 2009, it
had risen to 71 percent. This level, however, was below Amtrak's established OTP
goals for corridor trains at that time.

Most delays on the Coast Starlight and Amtrak Cascades routes were attributable
to the routes' host railroads, BNSF Railway and Union Pacific Railroad, with
significant portions of total minutes of delay attributed to freight train interference
(FTI) and slow orders. 6 Other delays were attributable to Amtrak for problems
such as train equipment failures and late connections as well as to third parties for
events such as trespassing or poor weather conditions. Several factors contributed
to the decrease in delays—and ultimately the lines’ improved OTP. First, the host
railroads and Amtrak improved operations by enhancing training for host railroad
dispatchers and reducing the numbers of slow orders. Capital improvements and
investments by the States of Washington and Oregon, among others also
contributed to better OTP. Finally, reduced freight traffic caused by the depressed
economy contributed to the routes' improved performance since fewer freight
trains on the tracks reduced FTI.


6
    FTI can result from a number of circumstances, such as when passenger trains meet or overtake freight trains,
    resulting in the passenger train having to slow down or stop. Slow orders are reductions in train speeds imposed for
    safety reasons if the quality of a section of track is not sufficient to meet its maximum allowable speed for daily
    operations. In addition, slow orders can decrease the maximum allowable speed on segments involving or near
    maintenance areas or capital projects.
                                                                                 3


FRA has taken action to develop new OTP metrics and standards, as required by
PRIIA. However, delays in issuing these new performance measures have stalled
other actions that could further improve OTP over the long term. For example,
STB officials told us they planned to wait until the final metrics and standards
were issued to begin investigating poor OTP. Effective implementation of the
new metrics and standards will depend on the quality of Amtrak delay data, which
is used to support them. Some state and host railroad officials questioned the
quality of Amtrak delay data, even though only a small percentage of delay entries
are ultimately challenged by host railroads. Ensuring quality data on delays is
important given its uses by the various stakeholders involved in intercity
passenger rail. FRA along with the states needs to ensure that the benefits of
recent Federal intercity passenger rail legislation are fully realized and
improvements in OTP for the Coast Starlight and Amtrak Cascades are
sustainable.

We are making recommendations to the FRA administrator regarding adequate
oversight for both the implementation of new metrics and standards and the
actions needed to address concerns over the limitations of conductor delay reports.
                                                                                                                 4


BACKGROUND
                                     Together, the Coast Starlight and Amtrak Cascades
                                     passenger rail corridors run more than 1,800 miles
                                     between Vancouver, British Columbia and Los
                                     Angeles, CA. Amtrak Cascades operates two daily
                                     roundtrip services between Vancouver and Seattle, and
                                     four daily roundtrip services between Seattle and
                                     Portland, and two daily roundtrip services between
                                     Portland and Eugene, which take approximately
                                     4, 3.5, and 2.5 hours, respectively. These short-distance
                                     corridor services are funded by Amtrak and
                                     Washington's      and     Oregon's     departments     of
                                     transportation. The Coast Starlight makes one daily
                                     round-trip between Los Angeles and Seattle. Each one-
                                     way journey is scheduled to take 34.5 hours. The Coast
                                     Starlight is one of Amtrak's 15 long-distance intercity
                                     passenger trains and is funded entirely by Amtrak.

                                      Like most Amtrak passenger trains, Coast Starlight and
                                      Amtrak Cascades trains operate on tracks owned by
                                      private freight railroad companies. Dispatchers from
                                      the host railroads direct the movement of all freight and
                                      passenger trains. For routes to operate, Amtrak, the
                                      host railroads, and state departments of transportation
                                      enter into various agreements that specify their
                                      obligations to one another.

                               • Amtrak enters into operating agreements with host
                                 railroads to use their rights-of-way. 7 The agreements
                                 typically specify (1) Amtrak's per-train mile
                                 incremental maintenance costs to cover track wear
                                 and tear due to passenger trains, (2) Amtrak's
      incentive payments and penalties to the host railroad depending on the host's
      performance, and (3) the host railroad’s obligation to maintain its tracks at a
      certain level of utility. Amtrak has operating agreements with Union Pacific



7
    When it was created by the Rail Passenger Service Act of 1970, Amtrak was granted priority access to all tracks
    owned by private freight railroad companies. These include seven U.S. Class 1 railroad companies: BNSF Railway,
    Norfolk Southern Railway, CSX Transportation, Union Pacific Railroad, Kansas City Southern Railway, Grand
    Trunk Corporation, and Soo Line. The main exception is Amtrak's Northeast Corridor (NEC) train service, which
    operates between Washington, DC, and Boston, MA, where Amtrak passenger trains run on tracks, except for short
    stretches, that are owned by Amtrak.
                                                                                                                        5


       and BNSF for Coast Starlight, 8 and with Union Pacific and BNSF for Amtrak
       Cascades.

• Amtrak maintains operating agreements with state departments of
  transportation to operate trains on state-subsidized corridor routes. These
  agreements typically specify the number of trips, schedules and OTP goals,
  and the types of services Amtrak will provide, such as ticketing and reservation
  systems. The agreements also stipulate the amount of compensation the state
  will pay Amtrak for these services and other actions the state will take to make
  the service feasible, such as providing passenger station facilities. For the
  Amtrak Cascades routes, Amtrak has agreements with Oregon and
  Washington.

• States and host railroads enter into various agreements for capital improvement
  projects, such as increasing rail capacity and upgrading track and signals.
  These agreements have not historically included all specified service outcome
  elements—number of trips, trip times, and reliability.

In March and September 2008, we reported on Amtrak’s poor non-NEC OTP. In
the March report, we estimated that Amtrak could have reduced its 2006 operating
losses by $136.6 million by bringing overall OTP up to 85 percent from 30 percent
for long distance and 67 percent for corridor routes. 9 In the September report, 10
we identified several root causes of delays that contributed to poor OTP for
Amtrak trains, including host railroad's dispatching and track maintenance
practices, and insufficient rail capacity 11 to handle the growing needs of intercity
passenger, freight, and commuter trains. We made recommendations, including
that FRA seek legislative changes that would provide Amtrak with a platform to
address its concerns regarding host railroad practices that affect OTP.

Several PRIIA objectives aim to improve the service and reliability of intercity
passenger rail. First, PRIIA requires FRA and Amtrak to establish new OTP and
delay measures and urges Amtrak and the host railroads to incorporate these new
measures into their operating agreements to the extent practicable. Second, PRIIA
gives the STB authority to initiate an investigation—on its own or in response to a
complaint from Amtrak, a host railroad, or other train operator—if an intercity
passenger train service fails to achieve minimum performance measures for two
consecutive quarters. STB can award damages if it determines that the cause of

8
     For a short distance, the Coast Starlight runs on tracks owned by the Southern California Regional Rail Authority.
9
     OIG Report Number CR-2008-047.
10
     OIG Report Number CR-2008-076, "Root Causes of Amtrak Train Delays," September 8, 2008. OIG reports are
     available on our website: www.oig.dot.gov.
11
     Available rail capacity is impacted by a number of factors including train control and dispatching systems, the
     number of main line tracks and crossings, the number and length of sidings, the presence of longer freight trains, and
     the differences in speeds of passenger and freight trains.
                                                                                                             6


poor performance was the host railroad's failure to provide preference to Amtrak
over freight trains. Finally, PRIIA requires Amtrak to evaluate the financial and
operating performance of each of its 15 long-distance routes, many of which have
turned in poor OTP records in recent years. It also requires Amtrak to develop
performance improvement plans for these long-distance routes and tasks FRA with
overseeing the development and implementation of those plans.


WHILE DELAYS CONTINUE, ON-TIME PERFORMANCE HAS
IMPROVED
While the Coast Starlight and Amtrak Cascades routes experienced significant
delays from 2004 through 2009, the total minutes of delay per 10,000 train miles
have dropped since 2006, their peak year, resulting in improved OTP for both
routes (see figure 1). Delays on both routes peaked in 2006 at a total of 4,053 and
2,310 minutes for the year, equating to more than 67 and 38 hours of delay per
10,000 train miles, respectively. However, by 2009, delays on both routes
dropped to 1,776 and 1,674 minutes, respectively, for the year.


    Figure 1: Coast Starlight and Amtrak Cascades Total
    Minutes of Delay, Fiscal Years 2004 through 2009

                                                   4,500
                                                   4,000
                        (per 10,000 train miles)




                                                   3,500
     Minutes of Delay




                                                   3,000
                                                   2,500
                                                   2,000
                                                   1,500
                                                   1,000
                                                           2004   2005      2006    2007       2008   2009
                                                                  Coast Starlight          Cascades
    Source: OIG analysis of Amtrak data

With decreases in minutes of delay, annual OTP for Coast Starlight and Amtrak
Cascades improved (see figure 2). Coast Starlight's annual OTP dipped to a low of
4 percent in 2006—the lowest on record that year in the Amtrak system—but by
2009 had risen to 82 percent, surpassing previously established Amtrak goals for
                                                                                     7


long-distance trains. During the same 6-year period, Amtrak Cascades showed a
small drop and then a steady, moderate overall improvement in annual OTP. The
route's OTP fell to below 50 percent in 2006, but began to rise the following year,
reaching its highest level, 71 percent, in 2009. This level, however, remains below
Amtrak's previously established OTP goals for corridor trains.

      Figure 2: Coast Starlight and Amtrak Cascades OTP,
      Fiscal Years 2004 through 2009
                          90%

                          75%
       Endpoint OTP (%)




                          60%

                          45%

                          30%

                          15%

                          0%
                                2004   2005       2006      2007     2008     2009
                                              Coast Starlight      Cascades

      Source: OIG analysis of Amtrak data


The monthly OTP for both Coast Starlight and Amtrak Cascades varied by season.
During winter months, severe weather conditions such as snow, freezing
temperatures, heavy rains, and mudslides delay trains in the Pacific Northwest.
During summer months, trains may be delayed because of heightened track
maintenance and construction work. Host railroad officials pointed out that OTP
could improve if Amtrak instituted flexible scheduling or developed seasonal
schedules to accommodate slow orders, track work, and other operational
conditions. Although Amtrak reviews its public schedules biannually, it generally
issues travel advisories and makes temporary schedule adjustments for anticipated
delays due to host railroad track work, rather than issue revised schedules for an
entire season.


FREIGHT TRAIN INTERFERENCE AND SLOW ORDERS CAUSED
MOST DELAYS, BUT RECENT ACTIONS HAVE IMPROVED OTP
Most delays on the Coast Starlight and Amtrak Cascades routes were attributable
to the lines’ host railroads, with significant portions of total minutes of delay
                                                                                                     8


assigned to FTI and slow orders. However, delays have decreased— ultimately
improving the routes’ OTP—due to several factors, including improved
operations, capital investments, and reduced freight traffic.


Most Delays Are Attributable to Host Railroads' FTI and Slow Orders
Delays on the Coast Starlight and Amtrak Cascades routes were primarily
attributable to the host railroads. Between 2004 and 2008, host-responsible delays
averaged roughly 80 percent of all delays before declining to their lowest levels of
67 and 70 percent, respectively in 2009 (see figure 3).

    Figure 3: Percent of Host Responsible Minutes of Delay,
    Fiscal Years 2004 through 2009

                                  90%
        Host Responsible Delays




                                  85%                       81%        82%
                                        80%
                                  80%          78%                                 77%
                                        79%                80%
                                  75%          78%                     77%      76%            70%
                                  70%
                                  65%                                                    67%

                                  60%
                                  55%
                                  50%
                                        2004   2005        2006        2007     2008       2009
                                                     Coast Starlight          Cascades

    Source: OIG analysis of Amtrak data



A large portion of the host-responsible minutes of delay from 2004 through 2009
were attributable to FTI and slow orders. Between 2004 and 2007, delays due to
FTI fluctuated between 20 and 40 percent of total minutes of delay. However, by
2009, these delays had dropped to below 15 percent. While delays caused by slow
orders dropped to approximately 20 percent of total minutes of delay in 2009—
after peaking in 2006 and 2007 at over 30 percent for the Coast Starlight—they
became the leading cause of delays for both routes (see figures 4 and 5).
                                                                                                                         9


Figure 4: Percent of Host Responsible Minutes of Delay by
Category, Coast Starlight
                           35%

                           30%
 Minutes of Delay (%)




                           25%

                           20%

                           15%

                           10%

                           5%

                           0%
                                       2004          2005            2006           2007         2008          2009
                                 FTI         Slow Orders      PTI         Signal Delays      Routing Delays     Other

Source: OIG analysis of Amtrak data



Figure 5: Percent of Host Responsible Minutes of Delay by
Category, Amtrak Cascades
                           45%
                           40%
                           35%
    Minutes of Delay (%)




                           30%
                           25%
                           20%
                           15%
                           10%
                            5%
                            0%
                                       2004          2005             2006           2007         2008         2009

                                       FTI      Slow Orders         PTI      Signal Delays    Routing Delays     Other

Source: OIG analysis of Amtrak data
                                                                                                                  10


The remaining minutes of delay were attributable to Amtrak for problems such as
train equipment failures, passenger-related issues, and late connections, or were
categorized as third party due to issues such as trespasser incidents, customs and
immigration concerns, unused recovery time, and weather. (See Exhibit E for the
percentages of delays in each category for the Coast Starlight and Amtrak
Cascades routes.)


Operational Changes, Capital Investments, and Reduced Freight
Traffic Have Contributed to Improved OTP
Over the past several years, the host railroads and Amtrak have improved their
operations by enhancing training for host railroad dispatchers and reducing the
number of slow orders to improve OTP. Capital investments and maintenance
work by states, commuter lines, and host railroads have also led to improved OTP
on the Coast Starlight and Amtrak Cascades routes. Finally, the lagging economy
has contributed to the improved OTP of Amtrak's passenger trains. With fewer
freight cars moving on the rails, delays due to FTI, one of the major causes of poor
OTP on both routes, have declined.


Operational Changes by the Host Railroads and Amtrak Have Led to
Improved OTP
Improved dispatching practices have led to fewer FTI delays on the Coast Starlight
and Amtrak Cascades routes. To improve passenger train dispatching, Union
Pacific hired a new manager of dispatching operations and enhanced its dispatcher
training program. New dispatchers are required to complete a 6-month training
program that includes both class work and simulations of dispatch situations. 12
BNSF officials also informed us that they provide dispatchers with extensive
training, which includes classroom and on-the-job training, followed by
workshops and skills training. Officials at both railroads said they provide newer
dispatchers with on-the-job coaching and counseling by senior staff, supervision,
and performance evaluations.

A reduction in the number of slow orders issued by Union Pacific also contributed
to Coast Starlight's improved OTP. Amtrak officials told us that Union Pacific
had been issuing a large number of slow orders for track defects and maintenance
work on tracks used by the Coast Starlight and Amtrak Cascades. From calendar
year 2004 to 2006, the number of minutes of delay attributed to these slow orders
rose from 100 minutes to more than 170 minutes per trip, according to data


12
     Host railroad officials from both Union Pacific and BNSF Railway stated that recent retirements have required the
     companies to hire large numbers of new dispatchers.
                                                                                                                 11


provided by Union Pacific and Amtrak. 13 Arbitration between Amtrak and Union
Pacific led to Union Pacific’s agreement in February 2009 to comply with most of
the contractual limits on slow orders. During arbitration, Union Pacific began
undertaking major track and tie improvement work along the Coast Starlight route,
resulting in a significant reduction in slow orders. By late calendar year 2009, the
number of minutes of delay attributable to slow orders on the Coast Starlight route
had dropped to about 40 minutes per trip.

Capital Investments and Maintenance Work by States, Commuter
Lines, and Host Railroads Increased Line Capacities and Reduced
Delays

Substantial capital investments have increased capacity and train round trips, and
improved OTP, on both the Coast Starlight and Amtrak Cascades routes.
However, given the long-term nature of capital improvement programs, many
capital projects are ongoing. Between 2004 and 2009, the State of Washington
invested nearly $61 million in capital projects along both the Coast Starlight and
Amtrak Cascades routes. Washington made investments intended to mitigate the
impact of additional passenger trains, increase line capacity, reduce delays, and
improve OTP. For example, between 2005 and 2007, the state spent almost $4
million on the construction of a new set of crossovers to allow faster passenger
trains, including those on the Amtrak Cascades route, to move around slower
freight trains. As outlined in the project description, the benefits include improved
safety by allowing trains to safely pass one another at greater speeds and improved
on-time performance with faster, more frequent service.

During the same period, the State of Oregon invested almost $38 million in capital
projects to improve infrastructure along the tracks used by the Coast Starlight and
Amtrak Cascades routes. State officials informed us that these investments have
focused on the construction of additional tracks, and track and signal
improvements. These track and signal improvements lessened the impact of
adding a second Amtrak Cascades roundtrip and increased line capacity, train
speeds, and rail network fluidity for both passenger and freight trains, all of which
ultimately improved OTP on both routes.

Sound Transit commuter rail also invested over $500 million during this time
period between Seattle, Everett, and Tacoma, Washington—in BNSF's line which
it shares with both Coast Starlight and Amtrak Cascades. The investments
addressed capacity constraints by upgrading or expanding signaling systems and
by adding tracks and crossovers, which allow trains to move from one track to
another. These investments, while made to improve Sound Transit services, have

13
     According to Amtrak officials, these delays exceeded the allowable number of minutes of delay due to slow orders
     contained in Amtrak's operating agreement with Union Pacific.
                                                                                                                           12


positively impacted the OTP of the two Amtrak routes. BNSF and Union Pacific
also undertook capital and maintenance projects that have improved the quality of
service along the Coast Starlight and Amtrak Cascades routes. For example, Union
Pacific completed significant tie replacements, cleaned or replaced ballast, and
added a new siding to maintain existing tracks and expand capacity. 14 BNSF,
solely or in conjunction with Sound Transit or the State of Washington, installed
segments of double track and added sidings and crossovers to allow Amtrak trains
to pass freight trains more easily. According to freight officials, these
improvements have led to higher quality tracks and additional capacity, making it
easier for Amtrak trains to remain on schedule. Most recently, the Federal
government has increased its role in intercity passenger rail by making capital
funds available to the states, from which the Coast Starlight and Amtrak Cascades
routes will benefit (see Exhibit C for additional information on recent Federal
grant programs for rail).

All of the actions that Amtrak, host railroads, and states have taken to improve
performance along the Coast Starlight and Amtrak Cascades routes are consistent
with Amtrak's operational performance improvement plans. 15 Amtrak's operational
performance improvement plan process addresses OTP and delay problems
through three stages: (1) operational improvements, such as dispatching practices
and signaling systems; (2) maintenance issues, such as repairs and upgrades to
host railroad track and other infrastructure or to Amtrak trains and equipment; and
(3) capital improvements to increase rail capacity. Amtrak officials said that, in
these plans, capital improvements are undertaken only if operational and
maintenance improvements do not fully address the existing OTP and delay issues.
They noted that capital spending is always a last resort and that many delay
problems for both Amtrak and the host railroads can be solved through operational
and maintenance actions. Although such a plan has not been implemented for
either the Coast Starlight or the Amtrak Cascades routes, the process is similar to
the actions that Amtrak, host railroads, the states of Washington and Oregon, and
Sound Transit have taken to improve passenger service on the 2 routes.




14
     Ties are the portion of the track structure placed under the rails to hold them steady in place and distribute the weight
     of the rails and rolling stock. A siding is a track located next to a main rail line that allows a train to move out of the
     way of an oncoming train. Sidings are also used to store trains or to add or remove cars from a train. Ballast is a
     selected material placed in a track to hold its position, distribute weight, dissipate force, and provide drainage.
15
     Previously, Amtrak called these performance improvement plans, but renamed them operational performance
     improvement plans to distinguish them from the PRIIA-mandated performance improvement plans for all long-
     distance passenger routes. The PRIIA-mandated plans are to consider service quality, financial issues, as well as
     OTP. Amtrak’s operational improvement plans focus on OTP and delay issues.
                                                                                                                    13


Lower Freight Traffic Increased Capacity on Both Routes
The recent decline in freight traffic on the Pacific Coast, caused by the lagging
economy, contributed to the improved performance of these routes. According to
STB data, 16 the amount of freight traffic in California, in terms of the number of
freight carloads, began to fall in calendar year 2007 and continued to drop in 2008
(see figure 6). During this 2-year period, freight traffic in the state declined by
about 10 percent from a peak of nearly 7.6 million carloads in 2006. Data are not
yet available for 2009. The decline started earlier in Oregon and Washington. The
amount of freight traffic began to drop in calendar year 2006, a year earlier than in
California, and continued to fall through 2008. During this 3-year period, freight
traffic in Oregon and Washington declined by 15 and 13 percent, respectively,
from their peaks in 2005.

             Figure 6: Trends in Freight Traffic (by Calendar Year)
                                  8,000,000
                                  7,000,000
             Number of Carloads




                                  6,000,000
                                  5,000,000
                                  4,000,000
                                  3,000,000
                                  2,000,000
                                  1,000,000
                                         0
                                              2003     2004       2005   2006        2007         2008
                                                     California     Oregon     Washington
           Source: OIG analysis of STB data



FRA officials informed us that while the lagging economy has led to reduced
freight traffic, freeing up capacity on rail lines and improving passenger train
OTP, there is not a one-to-one relationship between higher OTP and lower freight
traffic. For example, between 2007 and 2009, the Coast Starlight's OTP rose by
60 percent and the Amtrak Cascades' OTP increased by some 20 percent, while
freight traffic declined by only 10 to 15 percent in the three Pacific Coast states.

16
     These data come from the STB’s Carload Waybill Sample database, which contains a sample of waybills filed by
     most large U.S. railroad companies. Waybills are documents that contain the details of the shipment, route, and
     charges. This review used the total number of loaded rail cars that originated in, terminated in, or passed through
     California, Oregon, or Washington.
                                                                                                                  14


Officials agreed that other factors may be affecting OTP, such as more stringent
Federal guidance (e.g., FRA's proposed metrics and standards for intercity
passenger rail), which may have prompted host railroads to focus on passenger
train OTP. These officials acknowledged that while OTP has improved, it will
reemerge as an issue, especially when the economy revives.


DELAYS IN ISSUING NEW METRICS AND STANDARDS HAS
STALLED ACTIONS TO FURTHER IMPROVE OTP
FRA and Amtrak have taken action to develop new OTP metrics and standards, as
required by PRIIA. However, the final metrics and standards have only recently
been issued, delaying several PRIIA requirements and related actions that could
improve OTP. Furthermore, the measures' effectiveness could be compromised by
the limitations of the data used to support them. Some state and host railroad
officials questioned the reliability of Amtrak delay data. Ensuring quality data on
delays is not only critical to effectively implementing new performance measures
but it is also important given its numerous uses by Amtrak, FRA, the states, and
host railroads.

Implementation of New Metrics and Standards Affecting OTP Has
Been Delayed

As required by PRIIA, FRA and Amtrak jointly developed metrics and minimum
standards for measuring the OTP of intercity passenger train operations
(see table 1). FRA also set minimum standards for the number of host-responsible
and Amtrak-responsible minutes of delay. 17

Table 1: OTP Metrics and Standards for Non-Northeast Corridor Routes
Metric                    Purpose                                                          Minimum standard
Endpoint OTP              Records the percentage of trains that arrive at their            At least 80 percent
                                                      a
                          final destinations on time.
Effective speed           Helps prevent long-term "schedule creep" by
                          dividing a train's mileage by scheduled time plus
                          average lateness at final destination.
                                                                                                                  c
All-stations OTP          Identifies the percentage of trains that arrive at each          At least 80 percent
                                                         b
                          station along a route on time.
a
     Based on the former Interstate Commerce Commission's tolerances, which consider trains 10 to 30
     minutes past scheduled arrival to be on time, depending on the length of the trip. A Coast Starlight train,
     for example, can arrive 30 minutes late at its final destination and still be considered on time.
b
     Based on 49 U.S.C. Section 24101(c)(4), a train is considered to be on time at each station along a route
     if it arrives within 15 minutes of its scheduled arrival time.
c
     Effective 2012.



17
     Amtrak-responsible delays are set at no more than 325 minutes per 10,000 Train Miles. Host-responsible delays are
     set at no more than 900 minutes per 10,000 Train Miles.
                                                                                  15


While FRA issued its proposed metrics and standards for public comment in
March 2009, the final metrics and standards were not issued until May 2010. As a
result, several PRIIA requirements and related actions have been stalled.

First, the development of new performance improvement plans between Amtrak
and host railroads was slowed because, according to Amtrak officials, the host
railroads want to ensure that the plans' goals are aligned with the final metrics and
standards. Second, progress in incorporating the new, more rigorous measures into
Amtrak-host railroad operating agreements as they expired or were renegotiated
stalled. According to FRA staff, the new metrics and standards will provide more
stringent and transparent performance measures than those used to calculate
performance incentives in the current agreements, which provide greater
tolerances. For example, in calculating OTP, FRA's endpoint OTP metric allows a
basic tolerance of 10 minutes for a short trip, which means a train can be up to 10
minutes late and still be considered on time. For the same trip, a host railroad's
tolerance used to calculate a performance incentive may be significantly more.
One state official suggested that more binding and realistic agreements between
Amtrak and host railroads would be more effective.

Finally, delays in issuing the new metrics and standards have also had an impact
on STB investigations into OTP. According to STB officials, they planned to wait
until the final metrics and standards were issued to begin investigating poor OTP
or other service quality deficiencies of intercity passenger train services to
determine the extent to which delays could reasonably be addressed by the host
railroad, Amtrak, or other operators. STB will have the authority to review the
accuracy of passenger train performance data, which it can obtain from all parties,
and the extent to which scheduling and congestion contribute to delays. In some
cases, investigations may result in awards to Amtrak if STB determines that a
service's delays or inability to achieve minimum standards are attributable to a
host railroad’s failure to provide preference to Amtrak trains over freight trains.
State officials said that the threat of STB action may have led to recent
improvements in Amtrak’s OTP. One state official said STB's new role has made
host railroad's pay attention to passenger train OTP.

State and Host Railroad Officials Question the Reliability of Amtrak's
OTP Data

The effectiveness of FRA's new metrics and standards will depend on the
reliability of Amtrak's OTP data, most of which are derived from conductor delay
reports. Some state and host railroad officials have expressed concerns about the
reliability of the information—particularly attribution of the causes of delays.
Several officials said that conductors are limited by what they see when recording
the cause of a delay and often do not know the root cause of a delay. Officials
also pointed out that conductors’ other responsibilities—including tasks such as
                                                                                                                  16


counting and recording passenger tickets—may distract them from accurately
identifying causes of delays. In addition, comment letters related to FRA's
proposed metrics and standards related concerns about FRA's reliance on
conductor delay data. One freight railroad trade association commented that
conductor delay reports are of little value in assessing the true extent and cause of
delays and that FRA should require use of supplemental data, such as freight train
data, to determine root causes of delays. Amtrak officials told us that assigning
root causes of delays is subjective. However, analysis of root causes can be a
useful supplemental method for understanding why the direct cause of a delay
occurred. They stated that in order to avoid subjectivity, Amtrak assigns delay
codes based on the direct causes of delay to the Amtrak train.

Amtrak's process for preparing conductor delay reports is well documented.
Conductors manually fill in standard delay report forms, which include station
arrival and departure times and the type and minutes of each delay using 47 pre-
defined codes. (See Exhibit D for a list of the codes.) Each conductor assigns a
code based on his or her observations of the direct cause of the delay event,
including information from the train engineer or host railroad dispatcher. At the
end of a trip, conductors fax their reports to an Amtrak operations center, 18 where
data entry clerks key the conductor-recorded information into Amtrak's On-Time
Performance and Delay Reporting System. Each delay code has a direct
responsible party, either the host railroad or Amtrak, or the third party category.
At the same time, copies of conductor delay reports are also sent to host railroads.
If a host railroad does not agree with an item in a report, it can raise the issue with
Amtrak staff or directly with the train conductor or field supervisor in order to
resolve it. 19 The host railroads have up to 6 days to propose changes to delay
reports. In addition to reviewing conductor reports, Amtrak staff also follow-up
with conductors and field supervisors as necessary. Conductors may be asked to
clarify or correct entries in their reports. After 6 days, the delay data are "locked"
in the OTP system and cannot be changed.

A small percentage of delay entries are questioned by host railroads. Amtrak
officials noted that, of the estimated 2,000 delay entries recorded each day for the
entire network, host railroads question about 10 to 20 entries (about ½ to 1
percent). Amtrak officials also cited an audit conducted by a host railroad that
examined a sample of 55 train runs during a single month in 2008. Of a total 7,066
minutes of delay reported by Amtrak conductors, the host railroad raised questions
on about 8 percent of the total, including over-reported delays and the use of
wrong delay codes. Of the amount questioned, only a portion were found to

18
     Coast Starlight and Amtrak Cascades reports go to the operations center in Oakland, California.
19
     Most host railroads have passenger desks manned by host railroad staff fully funded by Amtrak who review the
     conductor delay reports. Passenger desk staff also monitor the status of Amtrak trains and notify Amtrak of major
     impending issues, and advocate for Amtrak delay avoidance within the host dispatching center.
                                                                                 17


require adjustment upon review. Amtrak officials noted that many of these
adjustments reallocated minutes from one host-responsible delay code to another
(e.g., from FTI to slow orders). Officials pointed out that conductor delay data are
the only data that are consistently collected across the Amtrak system.

The reliability of Amtrak conductor delay reports takes on greater significance
when considering its many other uses. In addition to supporting PRIIA-required
metrics and standards, conductor-recorded delay data are used extensively by
Amtrak, FRA, the host railroads, and state departments of transportation for a
variety of official purposes:

• Amtrak uses conductor delay data for both internal and external purposes. It
  uses the information in daily reports, which show the performance of all
  Amtrak trains for the prior day, and in information "dashboards", which go to
  Amtrak’s Board of Directors and management officials. Amtrak also uses
  delay data: to calculate its monthly performance incentive payments to host
  railroads; to develop operational improvement plans that address OTP and
  delay problems; and for monthly statistical reports that are posted on its public
  and internal websites.

• FRA uses Amtrak conductor delay data as the basis for its quarterly reports to
  Congress. These reports track the performance progress of all Amtrak
  passenger train routes, including OTP.

• The state departments of transportation (for state-supported routes) and host
  railroads use Amtrak conductor delay data to develop periodic reports on train
  delays and to help pinpoint locations of recurring delays. Host railroads and the
  states told us that they routinely "scrub" the Amtrak data. For example, host
  railroads may replay dispatchers' tapes to learn why delays occurred, and states
  may verify Amtrak data with information collected by their own field staff.


CONCLUSIONS
The groundwork for improved OTP for the Coast Starlight and Amtrak Cascades
routes has been laid. This is evident by the operational improvements instituted by
Amtrak and host railroads to enhance host railroad dispatching practices and
reduce slow orders. In addition, the substantial capital investments and
maintenance work by the states of Washington and Oregon, host railroads, and
Sound Transit to increase capacity and improve the quality of the freight rail
infrastructure have had a positive impact on the routes' OTP. Also, given the
Federal government's recent investment of $590 million in stimulus from ARRA
in Washington state, linking enforceable service outcomes to grant awards is key
to ensuring that the public investments result in the anticipated public benefits,
                                                                                   18


such as improved OTP. However, FRA's delay in finalizing new metrics and
standards for OTP of intercity passenger trains makes it difficult to determine if
the momentum that has been achieved up to now—throughout the Amtrak
system—is sustainable, particularly when the economy improves, freight traffic
increases, and the rails become congested again. While it remains to be seen what
effect STB will have in its new investigative role, FRA will be challenged in
ensuring that Amtrak develop and implement effective performance improvement
plans, negotiate OTP requirements into operating agreements, and address
concerns about the accuracy of conductor delay data.

RECOMMENDATIONS
To ensure that the benefits of recent Federal intercity passenger rail legislation are
fully realized and that improvements in OTP for the Coast Starlight and Amtrak
Cascades routes are sustainable, we recommend that the Federal Railroad
Administrator:

   1. Ensure that the new metrics and standards are incorporated into Amtrak
      performance improvement plans for its 15 long-distance routes and ensure
      their implementation.

   2. Provide the appropriate technical assistance to Amtrak and host railroads as
      they negotiate new operating agreements that incorporate the new metrics
      and standards.

   3. Take actions to improve data quality or address concerns regarding the
      limitations of conductor-recorded delay data.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of our report to FRA on July 30, 2010 and received their
response on September 3, 2010, which can be found in its entirety in the appendix
of this report. FRA fully concurs with our recommendations and agreed to inform
us within 6 months from the issuance of our final report of any activity related to
our recommendations by Amtrak or the host railroads. However, with regard to
recommendation 1, while FRA agrees with the intent of the recommendation they
raised concerns about their authority to compel the inclusion of the new metrics
and standards into performance improvement plans. Since performance
improvement plans for the 5 worst performing long-distance routes are currently
underway, FRA should be able to provide a target action date for this
recommendation.
                                                                                19


Additionally, we appreciate FRA's efforts to improve intercity passenger rail
service. The agency is working to ensure that all capital investments of Federal
funds in these services will include enforceable contractual agreements between
stakeholders to make and sustain operational improvements. FRA has expressed
its understanding that these agreements should cover not only service design and
operational issues such as scheduled trip times and service frequencies, but also
service reliability.


ACTIONS REQUIRED
We consider FRA's planned actions and follow-up within 6 months for
recommendations 2 and 3 reasonable and resolved, subject to follow-up provisions
in accordance with DOT Order 8000.1C. We request that within 30 days of this
report FRA provide in writing a target completion date for recommendation 1. We
appreciate the courtesies and cooperation of FRA representatives during this audit.
If you have any questions concerning this report, please call me at (202) 366-9970
or Toayoa Aldridge, the Program Director, at (202) 366-2081.



cc: Audit Liaison, OST, M-1
    Audit Liaison, FRA, RAD-43
                                                                                  20




EXHIBIT A. SCOPE AND METHODOLOGY
This audit examined the causes of delays and the on-time performance (OTP) for
two Amtrak passenger train routes, the Coast Starlight and the Amtrak Cascades,
during a 6-year period (fiscal years 2004 through 2009). The audit was prepared in
response to a mandate in Public Law 110-432, §225, the Passenger Rail
Investment and Improvement Act (PRIIA) of 2008.

To determine the causes of delays along the Coast Starlight and Amtrak Cascades
routes, we obtained and analyzed Amtrak's minutes of delay data from Amtrak's
On-Time Performance and Delay Reporting System (OTP System) for the 6-year
period. We examined the data to check for accuracy and completeness and found
no obvious errors. We compared a sample of data provided with the total minutes
of delay we calculated from reports available on Amtrak's website and determined
that it was sufficiently reliable for the purposes of this audit. We used prior audit
work to identify factors that cause most train delays on Amtrak trains systemwide.
During site visits to the West Coast, we rode on most segments of the Coast
Starlight and Amtrak Cascades routes to interview Amtrak personnel and make
observations. During these rides, we spoke with Amtrak engineers, train
conductors, and other personnel to obtain their views on the types of delays they
encountered and their causes, track condition and infrastructure, dispatching
practices, and other topics. While on the West Coast, we also conducted
interviews with other key stakeholders about their perspectives on the locations
and causes of train delays, their level of involvement and investment in the two
passenger train routes, and their relationships with other stakeholders. These
stakeholders included officials from Amtrak's Pacific Division, Union Pacific
Railroad, Washington State Department of Transportation, and Sound Transit. We
also conducted telephone interviews with officials from BNSF Railway, the
California State Department of Transportation, and the Oregon State Department
of Transportation, to obtain their views.

To evaluate trends in OTP for the Coast Starlight and Amtrak Cascades routes
over the 6-year period and identify the factors that contributed to the trends, we
obtained and assessed OTP data from Amtrak's OTP System and determined that it
was sufficiently reliable for the purposes of our audit. To look at recent trends in
freight traffic, we obtained Sample Waybill data from the Surface Transportation
Board (STB) for the number of carloads that originated, terminated, or passed
through the states of California, Oregon, and Washington during 6 years (calendar
years 2003 through 2008) and used the information as illustrative. In interviews
with officials from the California, Oregon, and Washington's departments of
transportation, Sound Transit, Union Pacific, BNSF, and Amtrak, we obtained
information on recent operational changes (e.g., dispatching practices, reduction in


Exhibit A. Scope and Methodology
                                                                                21


slow orders due to maintenance work, etc.) and capital investments that may have
affected OTP. Finally, we met with officials from Amtrak's Washington
headquarters, the Federal Railroad Administration, and the STB to obtain their
views on recent passenger train performance and discuss their new responsibilities
under PRIIA and DOT's high-speed and intercity rail grant programs.

We conducted this performance audit from October 2008 through July 2010. We
conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides reasonable basis for our findings and conclusions based on our audit
objectives.




Exhibit A. Scope and Methodology
                                                                        22




EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED

  Federal Agencies:
  Federal Railroad Administration, U.S. Department of Transportation,
  Washington, DC
  Surface Transportation Board, Washington, DC

  Amtrak:
  Amtrak Headquarters, Washington, DC
  Amtrak Pacific Division, Seattle, Washington

  Host Railroads:
  BNSF Railway, Washington, DC
  Union Pacific Railroad, Portland, Oregon

  State and Local Rail Agencies:
  Washington State Department of Transportation, Seattle
  Oregon State Department of Transportation, Portland
  California State Department of Transportation, Sacramento
  Sound Transit, Seattle




Exhibit B. Organizations Visited or Contacted
                                                                                                                   23




EXHIBIT C. RECENT FEDERAL GRANT PROGRAMS
To establish long-term partnerships between states and the Federal government to
support intercity passenger rail, in 2008 Congress enacted the Capital Assistance
to States—Intercity Passenger Rail Service Program. The program was established
in part to achieve tangible improvements in intercity passenger rail services by
improving capacity and reliability, possibly resulting in improvements to OTP.
Between 2008 and 2009, $120 million in grants were made available to states
through the program. PRIIA established the High-Speed Intercity Passenger Rail
Program (HSIPR), which built on the existing capital assistance grant program,
and strengthened the roles of Amtrak, FRA, states, and other stakeholders,
requiring them to improve intercity passenger rail service and operations. 1 ARRA
moved the HSIPR Program forward by awarding $8 billion to 31 states to develop
high-speed and intercity passenger train service. The Coast Starlight and Amtrak
Cascades routes will benefit from this Federal funding (see table 2 below).

Table 2: Federal Grant Awards to Washington, Oregon, and California
2008-2010
    State          Capital Assistance to        Project Description        HSIPR        Project Description
                   States Program                                          Program
    Washington     $6 million                   Projects include           $590         Projects include building bypass
                                                preliminary                million      tracks and multiple upgrades to
                                                engineering,                            existing track and signal systems.
                                                environmental review,                   Several safety-related projects will
                                                and right-of-way                        also be funded, including grade
                                                acquisition for a 1.2                   separations, positive train control,
                                                mile segment of the                     and seismic retrofits to Seattle’s
                                                Point Defiance Bypass                   King Street Station.
                                                project. Components of
                                                the project include new
                                                track and signal systems
                                                on a realigned right-of-
                                                way and a grade-
                                                separated railroad
                                                crossing.
    Oregon         No relevant funds            Not applicable.            $8 million   Work includes upgrading
                   awarded.                                                             Portland’s Union Station and
                                                                                        engineering and environmental
                                                                                        work for track and signaling
                                                                                        projects.




1
    This includes Amtrak’s long-distance routes, the Northeast Corridor, state-supported corridors, and new high-speed
    corridors.


Exhibit C. Recent Federal Grant Programs
                                                                                                       24




EXHIBIT D. AMTRAK DELAY CODES AND CATEGORIES*

Category                       Code Delay
Host
Signal Delays                  DCS   Signal Delays
Maintenance of Way Work        DMW Maintenance of Way Work
Slow Orders                    DSR   Temporary Slow Orders
Freight Train Interference     FTI   Freight Train Interference
Passenger Train Interference   PTI   Passenger Train Inference
Routing Delays                 RTE   Routing Delays
Other                          CTI   Commuter Train Interference
                               DBB   B&B Work
                               DBS   Debris Strike
                               DET   Electric Traction Work Due to Defect
                               DTR   Detour
                               ITE   Initial Terminal Delay Due to Engineering
                               PBB   Planned B&B Work
                               PET   Planned Electric Traction Work
                               PSR   Planned Slow Orders
                               SMW Scheduled Maintenance of Way Work
Amtrak
Equipment                      CAR   Car Failure
                               CCR Cab Car Failure
                               ENG Engine Failure
                               ITM   Initial Terminal Delay Due to Mechanical Failure
Late Connections               CON Hold For a Late Connection
Passenger Related              ADA   Passenger Related-Disabled Passengers
                               HLD   All Other Passenger Related Delay
Other                          CTC   CETC System
                               INJ   Injury
                               ITI   Initial Terminal Delay Due to Late-Arriving Inbound Train
                               ITT   Initial Terminal Delay Due to Transportation/Operations Related
                                     Causes
                               LMU   Late Makeup
                               MAL   Mail or Baggage Work
                               MCH Miscellaneous Mechanical Delay
                               MSC Miscellaneous Passenger Delay
                               OPS   Miscellaneous Operation Delay
                               OTH   Miscellaneous Amtrak-Responsible Delays
                               SMK Smoking Breaks
                               SVS   Servicing Delays
                               SYS   System Delays




Exhibit D. Amtrak Delay Codes and Categories*
                                                                                               25


Category               Code Delay
Third Party
Unused Recovery Time   NOD No Delay
Passenger Related      ADA   Passenger Related-Disabled Passengers
Other                  BSP   Bridge Strike
                       CUI   Customs and Immigration
                       DBS   Debris Strike, Damage, and Set Outs
                       ITE   Initial Terminal Delay Due to Engineering
                       ITT   Initial Terminal Delay Due to Transportation/Operations Related
                             Causes
                       MBO Drawbridge Opening for Marine Traffic
                       POL   Police Related
                       TRS   Trespasser Incidents
                       WTR Weather
*As of April 2009




Exhibit D. Amtrak Delay Codes and Categories*
                                                                                                    26




EXHIBIT E. PERCENTAGES OF DELAYS FOR COAST
STARLIGHT AND AMTRAK CASCADES ROUTES, BY FISCAL
YEAR AND RESPONSIBILITY*
                                           Coast Starlight
                                                                                                   2004-
Responsibility   Category                        2004    2005     2006    2007    2008     2009    2009
Amtrak           Equipment                        1.98    4.29     2.94    3.16    4.68     4.68    3.35
                 Late Connections                 1.14    0.49     1.02    0.55    0.80     0.39    0.74
                 Other                            9.06   12.16     9.09    6.85    8.33   10.95     9.01
                 Passenger Related                3.88    3.23     2.48    3.18    4.34     5.17    3.38
                 Amtrak Total                   16.06    20.35   15.52    13.74   18.44   21.20    16.47
Host             Signal Delays                   6.86     6.81    5.76     6.48    8.33   10.81     6.83
                 Maintenance of Way Work         3.09     3.18    3.39     5.52    4.50    3.87     3.71
                 Slow Orders                    26.90    28.31   32.88    31.42   25.90   21.19    27.62
                 Freight Train Interference     27.89    22.53   24.97    23.18   17.48    8.10    21.22
                 Other                           1.24     0.94    1.58     1.98    3.11    3.89     1.82
                 Passenger Train Interference   10.08    10.68    9.53    10.34   13.88   15.50    10.69
                 Routing Delays                  4.60     4.89    3.73     4.40    4.22    3.14     4.05
                 Host Total                     80.65    77.33   81.85    83.32   77.42   66.52    75.95
Third Party      Other                           3.23     2.27    2.55     2.92    3.53    4.86     2.92
                 Passenger Related               0.00     0.00    0.00     0.00    0.00    0.00     0.00
                 Unused Recovery Time            0.06     0.05    0.08     0.02    0.61    7.42     0.87
                 Third Party Total               3.29     2.32    2.63     2.94    4.14   12.28     3.79

                                          Amtrak Cascades
Responsibility                                                                                     2004-
                 Category                        2004    2005     2006    2007    2008     2009    2009
Amtrak           Equipment                        4.01    4.84     3.77    4.42    5.56     7.99    5.06
                 Other                            3.81    4.11     6.17    5.09    4.52     5.86    4.98
                 Passenger Related                2.78    2.79     2.04    3.41    4.30     4.83    3.34
                 Late Connections                 1.95    0.72     0.68    0.71    0.82     0.77    0.92
                 Amtrak Total                   12.55    12.46   12.65    13.62   15.20   19.44    14.31
Host             Signal Delays                   9.69     8.25    7.87     7.99    8.42    9.73     8.62
                 Maintenance of Way Work         2.86     2.36    2.54     3.73    2.79    3.14     2.92
                 Slow Orders                    14.08    20.21   12.72    19.00   22.88   18.15    17.75
                 Freight Train Interference     36.54    29.94   38.20    24.50   20.06   12.98    27.14
                 Other                           0.31     0.51    1.12     1.03    1.17    1.37     0.94
                 Passenger Train Interference    7.09     7.66    8.84    11.49    9.82   10.93     9.38
                 Routing Delays                  8.72     9.60    8.40     9.30   10.45   13.90    10.02
                 Host Total                     79.29    78.55   79.69    77.03   75.59   70.20    76.76
Third Party       Other                          8.16     8.99    7.65     9.31    9.17    9.62     8.80
                  Unused Recovery Time           0.01     0.01    0.01     0.03    0.04    0.73     0.13
                  Third Party Total              8.16     9.00    7.66     9.34    9.21   10.35     8.93
*As of January 2010




Exhibit E. Per cent ages of Delays for Coast Starlight and Amtrak
Cascades Routes, by Fi scal Year and Responsibilit y*
                                                                 27


EXHIBIT F. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                  Title

  Toayoa Aldridge                       Program Director

  Nancy Benco                           Senior Analyst

  Lindsay Steward                       Analyst

  Karen Sloan                           Communications Officer

  Susan Neill                           Writer-Editor




Exhibit F. Major Contributors to This Report
                            28




APPENDIX. AGENCY COMMENTS




Appendix. Agency Comments
                            29




Appendix. Agency Comments
                            30




Appendix. Agency Comments
